     Department of Homeland Security

     ��������������������������



            DHS Home-to-Work Transportation





OIG-14-21                               December 2013

                          OFFJCE OF lNSPEC."'OR GENERAL
                              Department of Homeland Security
                              Wrtshingwtl. 0(' 20:52K:' www.oii-t.db:i.go\'


                              December 20, 2013


MEMORANDUM FOR:               The Honorable Rafael Borras
                              Under Secretary for M anagement
                              Office of Management

                              Michael Karau
                              Acting Assistant Deputy for Mobile Assets and Personal
                              Property Program Office

                         C/ice        C:Xaa~JX\...._t_
FROM:                         Carlton I. Mann
                              Chief Operat ing Officer

SUBJECT:                      DHS Home-to-Work Transportation

Attached for your action is our final report, OHS Home-to-Work Transportation. We
incorporated the formal comments from the Office of Management In the final report.

The report contains five recommendations aimed at improving DHS' management of the
home-to-work transportation program. Your office concurred with all five
recommendations. DHS submitted a formal response to the draft report with a
man agement decision for each recommendation and OIG approves of DH5' plan. Based
on information provided in your response to the draft report, we consider
recommendations 1 through 4 resolved and open, and recommendation 5 is unresolved
and open. Once your office has fully implemented the recommendations, please submit
a formal closeout letter to us within 30 days so that we may close the
recommendations. The memorandum should be accompanied by evidence of
completion of agreed-upo n corrective actions. Please email a signed PDF copy of all
responses and closeout requests to OIGAuditsfollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Acting Assistant
Inspector General for Audits at {202) 254-4100.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


Table of Contents
Executive Summary ............................................................................................................ 1

Background ........................................................................................................................ 2

Results of Audit … ............................................................................................................... 3

           Monitoring and Oversight of Home-to-Work Transportation ............................... 4 

           Recommendations .................................................................................................. 8 

           Management Comments and OIG Analysis ............................................................ 9 


Appendixes
           Appendix A:          Objectives, Scope, and Methodology ............................................ 12
           Appendix B:          Management Comments to the Draft Report ............................... 14
           Appendix C:          Eligibility Type As Reported on Authorization Forms .................... 16
           Appendix D:          Major Contributors to This Report ................................................ 17
           Appendix E:          Report Distribution ........................................................................ 18

Abbreviations
           CBP                   U.S. Customs and Border Protection
           CRSO                  Chief Readiness Support Officer
           DHS                   Department of Homeland Security
           FEMA                  Federal Emergency Management Agency
           FMR                   Federal Management Regulation
           FY                    fiscal year
           GAO                   Government Accountability Office
           HtW                   home-to-work
           ICE                   U.S. Immigration and Customs Enforcement
           NPPD                  National Protection and Programs Directorate
           OIG                   Office of Inspector General
           OCAO                  Office of the Chief Administrative Officer
           TSA                   Transportation Security Administration
           U.S.C.                United States Code
           USCG                  United States Coast Guard
           USSS                  United States Secret Service
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Executive Summary
   The Department of Homeland Security (DHS) has one of the largest motor vehicle fleets
   in the Federal Government, with more than 56,000 vehicles costing approximately
   $534 million annually. Home-to-work transportation is the use of government passenger
   carriers, including motor vehicles, by employees for transportation between their
   homes and places of work. According to DHS, home-to-work transportation is a flexible
   and powerful tool for meeting mission requirements and enhancing the overall
   responsiveness to emergency situations. Our audit objective was to determine whether
   DHS has implemented appropriate internal controls to ensure that home-to-work
   transportation is justified and used efficiently.

   DHS has attempted to establish policies and procedures to ensure that its use of home-
   to-work transportation is effective and efficient, that data and reporting are reliable,
   and that it complies with applicable laws and regulations. However, the Department and
   the Components we reviewed do not adequately monitor and provide oversight of
   home-to-work transportation to ensure that the Components are complying with
   departmental guidance and consistently gathering timely, accurate information on
   eligibility and authorization, vehicle use, and the number of participants.

   The Department does not always ensure that home-to-work transportation applicants
   comply with eligibility requirements and that use of home-to-work transportation is
   authorized and justified. It has also not ensured that all Components using home-to-
   work transportation have complied with the annual reporting requirement in DHS
   Manual 112-05-001 Home-to-Work Transportation. As a result, DHS does not have
   reliable and accurate data to determine whether participation is justified or to make
   informed decisions about the use of home-to-work transportation.

   We made five recommendations to the Department to implement stronger internal
   controls, improve guidance on the home-to-work transportation program, and
   implement a department-wide, centralized data system to track and monitor home-to-
   work transportation information. The Department concurred with all five
   recommendations.




www.oig.dhs.gov                               1                                       OIG-14-21

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   DHS has one of the largest motor vehicle fleets in the Federal Government, with more
   than 56,000 vehicles costing approximately $534 million annually. The Department’s
   fleet is composed of government passenger vehicles used for official business to assist in
   accomplishing the missions of the Department and its Components.

   The DHS Manual 112-05-001 Home-to-Work Transportation (DHS HtW manual) defines
   home-to-work (HtW) transportation as the use of government passenger carriers (motor
   vehicles, aircraft, boats, ships, or other similar means of transportation) to transport
   employees between their homes and places of work. According to DHS, HtW
   transportation is a flexible and powerful tool for meeting mission requirements and
   enhancing the overall responsiveness to emergency situations.

   As of May 2013, DHS had more than 17,000 employees authorized to use HtW
   transportation. Table 1 shows the total number of authorized users of HtW
   transportation by Component for fiscal year (FY) 2012.


      Table 1: FY 2012 Authorized HtW Users by Component
                                                                                         Percentage of
                                                                            Total
                                                              HtW                          workforce
                                                                          Number of
                     DHS Component                         Authorized                     authorized to
                                                                           Domestic
                                                             Users                          use HtW
                                                                          Employees
                                                                                         transportation
      U.S. Immigration and Customs Enforcement
                                                             7,938          19,902             40%
      (ICE)
      U.S. Customs and Border Protection (CBP)               3,081          59,103             5%
      United States Secret Service (USSS)                    2,791          6,693              42%
      Transportation Security Administration (TSA)           2,276          64,312             4%
      National Protection and Programs Directorate
                                                              972           2,883              34%
      (NPPD)
      United States Coast Guard (USCG)                        411           49,585             1%
      Federal Emergency Management Agency
                                                               3            16,512             <1%
      (FEMA)
      Remaining components with large vehicle fleets
                                                               0            17,377             0%
      and no HtW
      Total                                                 17,472         236,367             7%
      Source: OIG analysis of data from DHS Office of the Chief Human Capital Officer and Component
      Headquarters




www.oig.dhs.gov                                        2                                              OIG-14-21
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Title 31, United States Code (U.S.C.) § 1344 grants each Federal agency head the
   authority to determine which job positions are eligible to use HtW transportation. The
   statute authorizes the use of HtW transportation for certain high level officials. It also
   provides the DHS Secretary with the ability to authorize HtW for employees engaged in:
   (1) performance of fieldwork; (2) intelligence, counterintelligence, protective services,
   and criminal law enforcement duties; (3) an emergency; (4) compelling operational
   consideration; or (5) clear and present danger. DHS has combined some of these
   eligibility categories. The DHS HtW manual reflects the legal framework by requiring
   DHS employees to select one of five eligibility categories: (1) legislative; (2) fieldwork;
   (3) intelligence, counterintelligence, protective services, or criminal law enforcement;
   (4) highly unusual circumstances; and (5) contingency determinations.

   During our audit, the Office of the Chief Administrative Officer (OCAO) was merged with
   the Office of the Chief Readiness Support Officer (CRSO). DHS’ Mobile Assets and
   Personal Property Program Office, which is under the CRSO, assists Components with
   fleet management policy and oversight and is charged with ensuring that Components
   comply with Federal and departmental fleet management and HtW policies, laws, and
   regulations. In November 2010, the Mobile Assets and Personal Property Program Office
   issued the DHS HtW manual, which sets forth procedures and requirements for DHS’
   HtW transportation, including guidance for Components to ensure efficiency and
   accountability throughout the Department.

   Our audit focused on the five DHS Components with the largest fleets and the most
   employees authorized to use HtW transportation—CBP, ICE, USSS, the USCG, and TSA.
   See appendix A for our objective, scope, and methodology.


   Results of Audit

   DHS has attempted to establish policies and procedures to ensure that its use of HtW
   transportation is effective and efficient, that data and reporting are reliable, and that it
   complies with applicable laws and regulations. However, the Department and the
   Components we reviewed do not adequately monitor and provide oversight of HtW
   transportation to ensure that the Components are complying with its guidance and
   consistently gathering timely, accurate information on eligibility and authorization,
   vehicle use, and the number of participants.

   The Department does not always ensure that HtW transportation applicants comply
   with eligibility requirements and that use of HtW transportation is authorized and
   justified. The Department has not ensured that all Components using HtW
   transportation have complied with DHS’ annual reporting requirement. As a result, DHS


www.oig.dhs.gov                                  3                                         OIG-14-21

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   does not have reliable and accurate data to determine whether participation is justified
   or to make informed decisions about the use of HtW transportation.

           Monitoring and Oversight of Home-to-Work Transportation

           DHS does not adequately monitor and oversee HtW transportation activities to
           ensure that the Components comply with its guidance and consistently gather
           timely, accurate information on vehicle use and HtW participants, including their
           eligibility and authorization to use HtW transportation. Specifically, the
           Department does not track HtW users accurately, review authorizations
           sufficiently, or ensure that reauthorizations are timely. DHS and the Components
           do not track, monitor, and report HtW transportation-related activities
           adequately, which may hinder detection of waste and abuse. Although all
           Components with HtW transportation users are required to report information
           on the program annually to the OCAO, only two Components have met this
           requirement. Consequently, the Department does not have accurate information
           on participant eligibility, vehicle mileage, including mileage associated with
           commuting and operations, as well as fuel costs.

           Tracking and Monitoring HtW-related Information

           Neither DHS nor the Components have systems to track and monitor HtW-
           related data adequately or gather it in a central system. For example, to respond
           to a request for the total number of HtW users, DHS relied on and provided 2-
           year-old data; CBP, TSA, and USSS headquarters had to request information from
           their field offices. CBP and ICE headquarters have fleet information systems, but
           the field offices cannot access these systems and instead collect HtW use on
           monthly paper-based logs.

           Although DHS Components collect HtW data submitted by individual users, they
           are not aggregating or verifying the monthly data for all HtW users. According to
           40 U.S.C. § 17502, Federal agencies should establish and operate a centralized
           monitoring system for motor vehicle operations; however, DHS does not have
           such a system to identify, collect, and analyze the costs of operating and
           maintaining its vehicle fleet. A centralized system would assist DHS in gathering
           and maintaining comprehensive and up-to-date information on HtW
           transportation, in analyzing the activities, and in determining whether the
           program could be more cost efficient. The absence of such a system hinders the
           Department and its Components in obtaining and using reliable data for internal
           and external reporting and in making informed decisions. The Mobile Assets and



www.oig.dhs.gov                                4                                       OIG-14-21

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Personal Property Program Office acknowledged the need for Components to
           track and maintain useful HtW information in an easily accessible data system.

           Eligibility and Authorizations

           Although the DHS HtW manual describes the eligibility categories, which must be
           selected for authorizing HtW transportation, the Department is not enforcing
           compliance. Some Components do not follow the guidance and use component-
           created eligibility categories, making it more difficult for DHS to determine
           whether participation is justified according to Federal law. For example, on TSA
           authorization request forms, employees justified the need for HtW
           transportation based on the program office in which they work.

           Although the DHS HtW manual includes descriptions of who is eligible to use
           HtW transportation, the manual does not include definitions or examples of the
           types of positions or duties for its eligibility categories, which may allow
           ineligible personnel to participate in the program. The manual does not define
           terms such as intelligence, counterintelligence, protective services, or criminal
           law enforcement as they relate to the Department’s mission. According to the
           General Services Administration Bulletin FMR B-35 Motor Vehicle Management,
           in their HtW programs, all agencies should consider defining terms such as
           emergency use, criminal law enforcement, intelligence, and counterintelligence
           as they relate to the agencies’ specific operations.

           Once a supervisor has determined that an employee is eligible for HtW
           transportation, the employee must complete and submit a DHS HtW
           authorization request for review. In DHS’ review process, field office supervisors
           approve and sign requests for authorization and forward them to Component
           headquarters officials. Headquarters officials are supposed to combine all field
           office HtW authorization requests and submit them to OCAO to review and
           recommend for approval or denial by the Secretary of DHS. OCAO is responsible
           for ensuring that authorization packages are complete, have sufficient detail,
           and comply with applicable laws and regulations.

           DHS does not ensure that HtW authorization requests are complete and
           accurate. During our site visits to Component field offices, we identified 25 of
           482 employees who were using HtW vehicles when their authorization forms
           were incomplete and did not comply with DHS guidance—16 forms did not have
           a supervisor’s signature and 9 forms did not include an eligibility category or
           provide a justification narrative. In addition to the 25, 15 of the 482 employees
           using HtW transportation did not have an authorization form on file at the time


www.oig.dhs.gov                                 5                                        OIG-14-21

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           of our review. During our interviews at eight locations, four employees
           responsible for fleet management said that officers and agents considered the
           HtW vehicles a perk to their position and reported that they viewed HtW
           transportation as more of an entitlement. DHS needs to strengthen the guidance
           in its HtW manual to ensure that each HtW authorization request adequately
           justifies and supports the need for an HtW vehicle.

           DHS has not ensured that Components submit timely requests to reauthorize the
           use of HtW transportation, and some participants use HtW vehicles even though
           the HtW authorization expired. We reviewed 482 authorizations and identified
           38 that were expired for employees who were using HtW vehicles for either
           fieldwork or a compelling operational consideration. According to the DHS HtW
           manual, fieldwork authorizations are limited to 2 years, after which use of HtW
           must be reauthorized. Compelling operational considerations are effective for
           not more than 15 calendar days, but can be extended for up to 180 days.

           Although DHS allows determinations for employees engaged in intelligence,
           counterintelligence, protective services, or criminal law enforcement duties to
           be generally open-ended, the HtW manual recommends that the Department
           and its Components monitor and oversee HtW transportation to ensure that the
           vehicle is still needed to meet the mission. We identified 67 law enforcement
           and 56 intelligence HtW authorizations that were not reviewed in more than 2
           years. The HtW manual identifies 2 years as the maximum timeframe for which
           the eligibility categories should be reviewed. We used this timeframe as a
           benchmark that should also be applied to law enforcement and intelligence
           authorizations. However, the manual does not specify the policies and
           procedures for periodic reauthorization related to law enforcement officials or
           any other categories for use of HtW transportation. See appendix C for more
           details.

           Data on Vehicle Use

           We identified errors and inconsistencies in the Components’ HtW data, which
           hamper the Department’s ability to make informed decisions for HtW
           transportation. Specifically, during our fieldwork, we identified Component field
           offices that:




www.oig.dhs.gov                                6                                        OIG-14-21

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           •	 Could not provide the actual number of HtW miles driven.

           •	 Could not determine the fuel costs directly related to commuting from home
              to work.

           •	 Reported different authorized HtW users than were included on lists from
              their Component headquarters. When comparing the lists of authorized
              participants from the Component headquarters that we reviewed to the lists
              provided by the field offices that we visited, we identified 1,288 employees
              whose names appeared on one list or another, but not on both lists.

           •	 Tracked HtW miles inconsistently. Some employees defined HtW use as any
              miles driven during their commute between their home and their duty
              station, whereas other employees defined HtW use as any miles driven in
              their HtW vehicle.

           •	 Applied inconsistent definitions and circumstances for recording call-outs.
              Call-outs, commonly defined as responses to emergency situations, are a
              primary justification for law enforcement officers to use HtW transportation.

           Some Components had employees who commuted more than the established
           50-mile limit each way at the seven locations we visited. According to the DHS
           HtW manual, HtW transportation cannot exceed 50 miles each way from
           residence to duty station, unless the OCAO grants a waiver. We verified the
           distance between 473 employees’ recorded home address and the duty station
           address and identified 19 employees who were non-compliant with the 50-mile
           limit and did not have an approved waiver. One employee at a field office
           commuted as far as 164 miles each way. In its annual HtW report to DHS, NPPD
           reported 64 employees who were not in compliance with the 50-mile limit and
           did not have a waiver on file. As of August 2013, DHS had not taken action to
           address NPPD’s reported noncompliance.

           Annual Reporting Requirement

           The Department has not ensured that all Components using HtW transportation
           have complied with its annual reporting requirement. According to the DHS HtW
           manual, by December 31 of each year, all Components must submit to OCAO a
           comparison of the HtW transportation costs proposed in the original request for
           authorization to those actually incurred, when the actual costs exceed the
           original projection. At a minimum, these cost comparisons must include



www.oig.dhs.gov                                7	                                     OIG-14-21

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           maintenance, fuel, and repairs; and a "Statement of Assurance" that the
           Component is meeting all statutory requirements of the program.

           Only CBP and NPPD submitted the 2012 annual HtW transportation report, and
           neither submission included a comparison between proposed and actual costs
           because neither had the necessary information to compare costs. According to
           CBP’s annual report, its data collection process does not have the fidelity to
           meet the annual reporting requirement. CBP intends to improve the data
           currently stored and entered into its HtW tracking system, in an effort aimed at
           validating and correcting vehicle inventory data and HtW reporting. As of August
           2013, the Mobile Assets and Personal Property Program Office had not
           requested these required reports from any other Components, nor had it
           requested the missing cost information in the submitted reports.

           Conclusion

           DHS has not implemented all the necessary internal controls for the use of HtW
           transportation, and it does not have reliable and accurate data to determine
           whether participation is justified or to make informed decisions about the use of
           HtW transportation. With more than 17,000 employees using government-
           provided vehicles, the Department needs to improve the reliability of program
           data so that it can thoroughly assess all HtW transportation-related activities to
           ensure that only eligible employees who meet its policy requirements are
           participating in the HtW program.

           Recommendations

           We recommend that the Under Secretary for Management:

           Recommendation #1:

           Strengthen the DHS Manual 112-05-001 Home-to-Work Transportation with
           clear definitions and guidelines for eligibility to participate and establishing
           guidance for periodic reauthorization of all approved home-to-work
           authorizations.




www.oig.dhs.gov                                  8                                            OIG-14-21

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #2:

           Implement policies to ensure Components collect reliable information necessary
           to track, monitor, analyze, and report on home-to-work transportation use and
           costs.

           Recommendation #3:

           Enforce the DHS Manual 112-05-001 Home-to-Work Transportation annual
           reporting requirement.

           Recommendation #4:

           Perform a thorough assessment of the home-to-work transportation program
           annually to validate the accuracy and completeness of the information reported,
           Component monitoring efforts, compliance with DHS guidance, and home-to-
           work transportation participant eligibility.

           Recommendation #5:

           Implement a centralized, department-wide, home-to-work data system,
           accessible by headquarters and Component personnel, to collect, track, and
           monitor home-to-work transportation-related information, such as
           authorizations, costs, vehicle use, and number of users.


           Management Comments and OIG Analysis

           DHS provided formal comments to our report. A copy of the response in its
           entirety is included as appendix B. DHS also provided a separate document with
           technical comments and suggested revisions to our report. We reviewed the
           technical comments and made minor changes in the report when appropriate.
           DHS concurred with all five of our recommendations. A summary of the
           responses and our analysis of those responses follow.

           Response to Recommendation #1: DHS concurred. The CRSO will work with
           Component operations to strengthen the HtW manual and clarify definitions and
           guidelines for eligibility to participate. DHS will also establish guidance for
           periodic renewal of all approved HtW authorizations. The estimated completion
           date is June 30, 2014.


www.oig.dhs.gov                               9                                         OIG-14-21

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           OIG Analysis: DHS’ planned corrective actions are responsive to the
           recommendation. This recommendation will remain resolved and open until we
           receive documented support that DHS has strengthened the HtW manual and
           established guidance for periodic HtW reauthorizations.

           Response to Recommendation #2: DHS concurred. The CRSO plans to develop a
           data dictionary to specify each data element that must be included to document
           HtW use. The CRSO will also edit the HtW manual to include implementation
           guidance on the collecting and reporting of data and will issue a standard
           mileage log for use in the field. The estimated completion date is September 30,
           2014.

           OIG Analysis: DHS’ planned corrective actions are responsive to the
           recommendation. This recommendation will remain resolved and open until we
           receive documented support that DHS has edited the HtW manual to include
           implementation guidance on collecting and reporting HtW data. We will also
           need to verify that DHS has developed and issued a data dictionary and a
           standard mileage log.

           Response to Recommendation #3: DHS concurred. The CRSO will continue to
           encourage Components to comply with the reporting requirements by sending
           reminders of their responsibilities and offering support in meeting and
           understanding requirements. A certification requirement for the Component
           Head will be added to the requirement starting with the 2014 annual report. The
           estimated completion date is September 30, 2014.

           OIG Analysis: DHS’ planned corrective actions are responsive to the
           recommendation. OIG understands that the CRSO has oversight responsibility
           but limited authority to enforce Components’ compliance with the annual
           reporting requirement. This recommendation will remain resolved and open
           until we receive documented support that DHS is fulfilling its oversight
           responsibility to encourage the Components to comply with the annual HtW
           reporting requirement.

           Response to Recommendation #4: DHS concurred. The CRSO will institute an
           annual review of Component HtW programs and documentation supporting all
           approved HtW requests. The estimated completion date is September 30, 2014.

           OIG Analysis: DHS’ planned corrective actions are responsive to the
           recommendation. This recommendation will remain resolved and open until we
           receive documented support that DHS has instituted an annual review of

www.oig.dhs.gov                               10                                      OIG-14-21

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           Component HtW programs and documentation supporting all approved HtW
           requests.

           Response to Recommendation #5: DHS concurred and within the next 180 days,
           the CRSO will explore options for developing or acquiring a department-wide
           HtW data system. DHS plans to develop an implementation schedule if a viable
           option exists. The estimated completion date is to be determined.

           OIG Analysis: DHS’s planned corrective actions seem responsive to the
           recommendation. The recommendation will remain unresolved and open until
           we receive documented support on how DHS plans to implement a centralized,
           department-wide HtW data system.




www.oig.dhs.gov                             11                                     OIG-14-21

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether DHS has
   implemented appropriate internal controls to ensure the use of HtW transportation is
   justified and used efficiently. To achieve our objectives, we interviewed DHS officials
   and Component personnel from the Mobile Assets and Personal Property Program
   Office, CBP, ICE, TSA, USSS, and the USCG.

   We reviewed policies and procedures related to HtW transportation including 31 U.S.C.
   § 1344, Passenger Carrier Use, which grants the agency head authority to determine
   HtW eligibility, 41 CFR Part 102-5 covering HtW transportation, the General Services
   Administration Bulletin FMR B-35 Motor Vehicle Management on HtW transportation,
   the DHS Manual 112-05-001 Home-to-Work Transportation, and fleet management
   handbooks of the various Components we reviewed.

   We met with officials at eight locations to review the HtW activities. In Washington, DC,
   we met with officials at DHS’ Mobile Assets and Personal Property Program Office,
   which is under the CRSO and assists Components with fleet management policy and
   oversight. We conducted fieldwork testing at the five DHS Components with the largest
   fleets—CBP, ICE, USSS, the USCG, and TSA—at the following seven locations: Boston,
   MA; San Diego, Los Angeles, and Long Beach, CA; Tucson and Phoenix, AZ; and Chicago,
   IL. We selected site visit locations based on the following criteria: field offices with the
   largest fleets; field offices reporting the largest participation in HtW transportation;
   locations with multiple co-located Component offices (CBP, ICE, USSS, the USCG, and
   TSA); and Component offices near OIG offices to save travel funds. We excluded OIG to
   meet the generally accepted government auditing standards conceptual framework
   approach to independence.




www.oig.dhs.gov                                 12                                        OIG-14-21

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   During site visits—

       •	 We collected HtW authorizations to verify whether the employees were 

          authorized to use HtW vehicles; 

       •	 We reviewed vehicle log records to determine whether HtW and operational
          mileage, response to emergencies, and monthly mileage readings were
          documented; and
       •	 We completed a vehicle verification form for all HtW officers and agents we
          interviewed to determine where they reported daily on their duties and how
          often they used their HtW vehicle. We also inspected their vehicles to verify the
          accuracy of headquarters and local vehicle inventory files. We verified the
          vehicle identification number in the headquarters and local fleet inventories to
          ensure that both offices were tracking HtW vehicle use.

   We interviewed field supervisors and users with oversight responsibility for HtW
   vehicles and reviewed vehicle inventories, vehicle usage logs, and HtW authorizations.
   We mapped the distance from duty station to residence for all HtW users we
   interviewed to determine if they were complying with the DHS HtW manual’s 50-mile
   commuting limit. Because of limited audit resources, we relied on Component self-
   reporting and did not perform data reliability tests on the data we received from the
   DHS Components pertaining to their HtW fleet inventories, number of approved HtW
   users, or vehicle log records.

   We conducted this performance audit between November 2012 and June 2013
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. This is one of a
   series of audit, inspection, and special reports prepared as part of our oversight
   responsibilities to promote economy, efficiency, and effectiveness within the
   Department. We believe that the evidence obtained provides a reasonable basis for our
   findings and conclusions based upon our audit objectives.




www.oig.dhs.gov                               13 	                                     OIG-14-21

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                U.S. Department or llomdand Security
                                                                                \Yashinl!IOn, DC 20528



                                                                                Homeland
                                                                                Security
                                             November 13.2013


     MEMORANDUM FOR:                Charles K. Edwards
                                    Deputy Inspector General


                                                         kj{..
                                    Office of inspector General

     FROM:                          Jim H. Crumpacker             q} .    ~     ,
                                    Director                      ~
                                    Departmental GA0-0         Liaison Office

     SUBJECT:                       OIG Draft Report: "DHS Home to Work Transportation" (Project
                                    No. 13-016-AUD-MGMT)

     Thank you for the opportunity to review and comment on this draft report. The U.S. Department
     of Homeland Security (DHS) appreciates the Office oflnspector General 's (OIG's) work in
     planning and conducting its review and issuing this report.

     DHS recognizes the importance of managing its resources to effectively deliver its mission. The
     Department established policy and related procedures and requirements for the Home to Work
     (HtW) transportation program with the issuance of the DHS HtW Manual in November 20 I 0.
     The HtW Manual includes guidance establishing and maintaining Component-specific programs
     to ensure HtW efficiency and accountability throughout the Department.

     The draft rep01t contained five recommendations with which the Department concurs.
     Specifically, OTG recommended that the Under Secretary for Management:

     Recommendation 1: Strengthen the DHS Manual 112-05-001 Home-to-Work Transportation
     with clear definitions and guidelines for eligibility to participate and establishing guidance for
     periodic reauthorization of all approved HtW authorizations.

     Response: Concur. The DHS Chief Readiness Support Officer (CRSO) will work with
     Component operations to strengthen the manual, clarifying definitions and guidelines for
     eligibility to participate. This work will include objective criteria for eligibility for each of the
     HtW categories: fieldwork, intelligence, counterintelligence, protective services, criminal law
     enforcement, highly unusual circumstances, and contingency detenninations. Guidance will also
     be established for periodic renewal of all approved HtW authorizations. We anticipate revising
     and reissuing the manual within approximately 180 days. Estimated Completion Date (ECD):
     June 30,2014.

     Recommendation 2: Implement policies to ensure Components collect reliable infonnation
     necessary to track, monitor, and analyze, and report on home-to-work transportation usc and
     costs.


www.oig.dhs.gov                                         14                                                       OIG-14-21

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


    Response: Concur. The OilS C RSO will develop a data dictionary and specify each data
    element that must be included to document HtW. The HtW Manual will be edited to include
    implementation guidance relative to collection and reporting of data, including responsibilities
    for data capture, consolidation, and monitoring. These steps should improve the understanding
    of the data required and the quality of the data captured. A standard mileage log with mileage
    recorded by employee, certified by supervisor and forwarded to local fleet manager for data
    entry on a periodic (monthly) basis will be issued for implementation. The daily log will include
    a reminder of the employee's ethics responsibilities and potential consequences for failing to
    meet expected standards in the footer. ECD: September 30, 2014.

    Recommendation 3: Enforce the DHS Manua/112-05-001 Home-to-Work Transportation
    annual reporting requirement.

    Response: Concur. The DHS CRSO will continue to encourage Components to comply with
    reporting requi rements established in December 2008 in Management Directive 11 2-05, !lome to
    Work Transportation Programs . Strategies to encourage Component compliance include
    frequent reminders of their responsibilities, offers of support in meeting and understanding
    requirements, and meeting with Component management and/or other operations upon which the
    Component fleet managers rely for data and compliance. A certification requirement for the
    Component Head will be added to the requirement starting with the 2014 annual report. ECD:
    September 30,2014.

    Recommendation 4: Perform a thorough assessment of the home-to-work transportation
    program annually to validate the accuracy and completeness of the infonnation reported,
    component monitoring efforts, compliance with DHS guidance, and HtW transportation
    participant eligibility.

    Response: Concur. The DHS CRSO wi ll continue efforts to monitor data submitted by
    Components for compliance. This will include instituting an armual review of Component HtW
    programs and documentation supporting all approved requests. CRSO will assess the
    Component HtW programs in conjunction with its broader assessment of support services
    programs in 2014. ECD: September 30,2014.

    Recommendation 5: Implement a centralized, department-wide, home-to-work data system,
    accessible by headquarters and component personnel, to collect, track, and monitor home-to-
    work transportation-related information, such as authorizations, costs, vehicle use, and number
    of users.

    Response: Concur. The DHS CRSO will explore options for development or acquisition of a
    DHS-wide, HtW data system with a goal of developing requi rements within the next 180 days.
    Specific findings and an implementation schedule will then be developed if a viable option is
    identified and given the availability of budgetary resources. Should resource constraints or other
    concerns preclude development of a DHS-wide system; alternatives will be identified to meet the
    intent ofOIG 's recommendations. ECD: To Be Detcnnined

    Agai n, thank you for the opportunity to review and comment on this draft report. Technical
    comments were previously provided under separate cover. Please feel free to contact me should
    yo u have any questions. We look forwa rd to working with you in the future.




www.oig.dhs.gov                                       15                                                 OIG-14-21

                                   OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Appendix C
   Eligibility Type As Reported on Authorization Forms

         Eligibility Category                   Duration                  Authorizations    Expired or No
             Reported by                                                    Reviewed         Evidence of
             Component                                                                     Review in more
                                                                                             than 2 years

       Legislative (Senior Level
                                    Unlimited                                   0               N/A
       Officials)

       Intelligence                 Generally open-ended                       77               56

       Law Enforcement              Not listed as one of the five
                                    types of eligibility, used duration        172               67
                                    for intelligence.

       Highly Unusual               15 calendar days with two 90-
                                                                                0                0
       Circumstances                day extensions

       Fieldwork                    2 years                                    100               9

       Compelling Operational       Not listed as one of the five
       Consideration                types of eligibility, used duration
                                                                               36                29
                                    for Highly Unusual
                                    Circumstances.

       Emergency                    Not listed as one of the five
                                    types of eligibility, used the              6                0
                                    maximum duration of 2 years.

       Contingency                  Limited duration                            0                0
       Determinations

       No Authorization on File     Could not determine                        15               15

       No, Multiple, or             Could not determine                        76               N/A
       Component-Created
       Eligibility Selections

       Totals                                                                  482              176

       Source: DHS OIG Analysis of Authorizations

   �


www.oig.dhs.gov                                        16                                             OIG-14-21
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Major Contributors to This Report
   Patrick O’Malley, Director
   Shelley Howes, Audit Manager
   Lindsey Koch, Auditor-in-Charge
   Sandra Ward-Greer, Auditor
   Frank Lucas, Auditor
   Tom Hamlin, Program Analyst
   Kelly Herberger, Communications Analyst
   Ralleisha Dean, Independent Referencer




www.oig.dhs.gov                              17                 OIG-14-21

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   Chief Administrative Officer
   General Counsel
   Executive Secretary
   Under Secretary for Management
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Mobile Assets and Personal Property Program Office
   Component Liaison, U.S. Customs and Border Protection
   Component Liaison, U.S. Immigration and Customs Enforcement
   Component Liaison, United States Secret Service
   Component Liaison, United States Coast Guard
   Component Liaison, Transportation Security Administration
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             18                             OIG-14-21
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
